No. 19In The
SUPREME COURT of the UNITED STATES
MARK J. SCHWARTZ,
Petitioner
v.
CLARK COUNTY and JACQUELINE R.
HOLLOWAY,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify
that the petition for writ of certiorari contains 3201
words, excluding the parts of the petition that are
exempt by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on December 11, 2019

/S/ Mary F. Chapman, Esq.
Mary F. Chapman, Esq.

